                          SBA'S OVERSIGHT OF 


                  BUSINESS LOAN CENTER, LLC 


                                Report Number: 7-28 

                              Date Issued: July 11, 2007 



Report 7-28, SBA's Oversight of Business Loan Center, LLC, contains numerous
redactions that were requested by the Small Business Administration (SBA) Office of
General Counsel (OGC). The SBA OGC believes that this text is subject to the
deliberative privilege and bank examiners' privilege and should not be disclosed under
exemptions 5 and 8 of the Freedom of Information Act. Although the Office of Inspector
General does not necessarily agree with the extent of these redactions, as a courtesy, we
have agreed to redact this text. To the extent that these redactions make the report
difficult to understand, the following summary of the report is provided.

The OIG initiated an audit of the SBA's oversight of Business Loan Center, LLC (BLX)
as a result of a recent OIG investigation of allegations regarding fraudulent loans
originated by BLX. The OIG investigation resulted in the arrest of a BLX Executive
Vice President and 18 other individuals, not employed by BLX, for allegedly making
over $76 million in fraudulent loans to unqualified loan applicants.

The audit identified problems with the manner in which SBA addressed performance and
compliance issues with BLX's lending activities and SBA's actions to protect
government funds once deficiencies were identified. Since 2001, SBA' s oversight
activities identified recurring and material issues related to BLX's performance. Despite
these recurring problems, SBA continued to renew BLX's delegated lender status and
SBA took no actions to restrict BLX's ability to originate loans or to mitigate financial
risks through the purchase review process. The audit also determined that the
organizational placement of SBA's Office of Lender Oversight (OLO) presented a
potential conflict because OLO did not have compatible goals with the organization to
which it reports, and that SBA lacked clear enforcement policies.               The OIG
recommended that SBA take certain actions to mitigate the risk posed by BLX, identify
actions to address the potential organizational conflict, and develop more definitive
guidance on enforcement actions.
             U.S. Small Business Administration
             Office Inspector General
                                                               Memorandum
    To : 	   Michael Hager                                             Date:   July 11, 2007
             Associate Administrator for Capital Access

  From: 	    Debra S. Ritt 

             Assistant Inspector General for Auditing 


Subject: 	   SBA's Oversight ofBusiness Loan Center, LLC
             Report No. 7-28

             This is the first of two reports resulting from our audit of the Small Business
             Administration's (SBA) oversight of Small Business Lending Companies (SBLC).
             The audit was performed as a result of a recent Office oflnspector General (OIG)
             investigation of allegations regarding fraudulent loans originated by Business
             Loan Center, LLC (BLX), a subsidiary of a portfolio concern held by Allied
             Capital Corporation. The OIG investigation resulted in the arrest of a former BLX
             executive vice president and 18 other individuals, not employed by BLX, for
             allegedly making over $76 million in fraudulent loans to unqualified loan
             applicants.

             This report addresses whether: (1) SBA's oversight activities identified
             performance or compliance issues with BLX's lending activities that warranted
             attention; and (2) SBA acted appropriately to protect government funds once
             deficiencies were identified. Our audit focused on SBA's oversight ofBLX from
             2001 to 2006.

             To determine whether SBA was aware of performance or compliance issues
             associated with loans originated by BLX, we reviewed quarterly risk ratings
             assigned the lender between June 2004 and November 2006 by SBA's Loan and
             Lender Monitoring System (LILMS). We reviewed on-site examination reports
             issued between October 2001 and April2006 by the Farm Credit Administration
             on SBA' s behalf, and related corrective actions addressing reported deficiencies.
             We also interviewed a Farm Credit Administration examiner to gain an
             understanding of the scope and methodology used in the SBLC on-site
             examination process. Further, we reviewed field office input regarding renewals
             ofBLX's delegated lender status and information on lender deficiencies noted in
             SBA's guarantee tracking system.
                                                                                                                      2


To determine if SBA acted appropriately to protect government funds once
deficiencies were identified, we interviewed personnel in SBA's Office of Lender
Oversight (OLO), Office of Financial Assistance (OFA), and commercial loan
servicing centers. We assessed whether a corrective action plan established for
BLX was effective in improving BLX's lending performance and evaluated SBA's
decision-making process in renewing BLX's delegated lending authority over the
past 6 years. Finally, we interviewed staff at the National Guaranty Purchase
Center to determine whether performance issues associated with BLX were
considered in decisions to purchase guarantees on loans originated by BLX. We
conducted our audit between January and February 2007 in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States.

BACKGROUND

SBA is authorized under Section 7(a) of the Small Business Act (the Act) to
provide financial assistance to small businesses in the form of government­
guaranteed loans. SBA provides this assistance through approved lenders, some
of which are also licensed by SBA as SBLCs. An SBLC is a non-depository
lending institution that is wholly supervised, examined, and regulated by SBA, and
subject to all applicable SBA regulations, including those governing 7(a) lenders.

BLX is a licensed SBLC and is certified as having preferred lender status under
SBA's Preferred Lender{PLP), SBAExpress, and Community Express lending
programs. As a lender with delegated authority, BLX processes, closes, services,
and liquidates SEA-guaranteed loans with limited oversight. 1 Prior to May 2006,
SBA designated the geographical areas in which lenders had delegated lending
authority. After that date, SBA began granting delegated lending authority on a
nationwide basis. Delegated lending authority must be renewed at least every 2
years. During the renewal process, SBA considers the lender's performance
relative to performance benchmarks established for preferred lenders.

BLX has been among SBA's top 10 lenders in dollars disbursed for section 7(a)
loans since calendar year (CY) 2002. As shown in Table 1, BLX originates PLP,
SBAExpress and Community Express loans, with the bulk of its loan portfolio
comprising PLP loans. Additional information about BLX's loan portfolio is
provided in Appendix I.




1	
     Lenders with delegated authority may originate loans without prior approval by SBA. SBA 's oversight of these loans
     is limited to verifying the eligibility of the principal and the loan based on information provided by the lender.
                                                                                                3


                       Table I. Loans OriginaJed by BLX in FYs 2001 to 2006
                                           ($ in millions)

                                                               Community         Regular 7(a)
            All loans        PLP Loans      Express Loans     Express Loans         Loans
 FY     #of               #of              #of               #of               #of
        loans    Value    loans   Value    loans    Value    loans    Value    loans    Value
 2001      678    $341.4   524    $264.9      n/a      n/a       n/a     n/a     113    $76.5
 2002      792     $451.5   563   $312.3      n/a      n/a       n/a     n/a     137   $139.2
 2003      496    $251.8    361   $183.3       15     $1.8       n/a     n/a     120    $66.8
 2004      560     $275.0  443    $231.2       22     $2.4       25     $0.6      70    $40.9
 2005    1,594     $238.4   316   $189.2         1    $0.1    1,231    $24.4      46    $24.8
 2006    2,123     $217.3  246    $156.3       44     $1.0    1,809    $46.2      24    $13.8
Source: SBA's Loan Accountmg System


 SBA's lender oversight responsibilities are divided among multiple offices­
 OLO, OF A, the Sacramento Loan Processing Center (Center), and commercial
 loan service and purchase centers. OLO and OFA are located within the Office of
 Capital Access (OCA). In addition, there is a Lender Oversight Committee
 consisting of representatives from each of the previously mentioned offices and
 SBA's Chief Operating Officer, Associate Administrator for Capital Access, and
 Chief Financial Officer. The committee is responsible for reviewing decisions on
 oversight strategy and voting on lender enforcement actions.

 OLO has primary responsibility for managing loan program credit risk, monitoring
 lender performance, and enforcing lending program requirements. Its major
 oversight activities include:
     • 	 quarterly risk assessments of lenders through ratings generated by LILMS;

     •     on-site reviews oflender operations that are conducted by the Fann Credit
         . Administration and other contractors on OLO's behalf; and

     • 	 trend analyses and reviews of risk indicators to assess the quality of SBA' s
         overall loan portfolio.

 In September 2004 OLO assumed responsibility for granting and renewing
 delegated authority for high-risk lenders. Previously, this function was performed
 by OFA.

 OFA is responsible for delegating loan origination authority to medium- and low­
 risk lenders and for managing SBA's credit programs. In managing the credit
 programs, OFA develops and recommends policies concerning business and
 economic development; establishes plans, operating procedures, and standards for
 the Agency's credit programs; and develops program goals and reviews program
 effectiveness.
                                                                                    4


SBA' s Loan Processing Center in Sacramento and the commercial loan service
centers oversee credit decisions and liquidation activities of the lenders.
Specifically, the Sacramento Loan Processing Center is responsible for:

   • 	 evaluating the eligibility of, and issuing loan guarantee commitments for,
       sections 7(a) and 504 loans submitted using delegated lending authorities;

   • 	 providing recommendations for all lenders seeking nomination or renewal
       for their delegated lending status; and

   • 	 managing the execution of agreements between SBA and lenders for the
       delegated lending authority programs, maintaining the agreements,
       tracking agreement expirations, and initiating necessary actions prior to
       agreement expirations.

Responsibility for monitoring lender compliance with SBA liquidation
requirements and for performing purchase reviews of defaulted loans belongs to
the National Guaranty Purchase Center in Herndon, Virginia, and the commercial
loan service centers in Fresno, California and Little Rock, Arkansas. The Herndon
Center purchases guarantees made under the PLP and regular lending programs,
while the Fresno and Little Rock centers purchase guarantees for SBAExpress and
Community Express Loans.

In conducting purchase reviews, the loan service centers examine lender purchase
requests and relevant documentation to evaluate whether lenders materially
comply with applicable regulations and operating procedures. This review, which
is intended to minimize erroneous payments, is generally performed before
purchases are made, but is done post-purchase when the loan has been sold on the
secondary market. In the event of non-compliance by the lender, SBA may be
released, in full or in part, from its liability on the loan guarantee. If SBA has
already purchased the guarantee from a secondary market holder, it may seek
recovery from the lender. Because substantially all ofBLX's loans are sold on the
secondary market, SBA performs reviews of BLX loan guarantees after they are
purchased.

RESULTS IN BRIEF
                                                                                     5




Despite recurring problems, SBA continued to renew BLX' s delegated lender
status and to honor the lender's guarantee purchase requests. For example, SBA
renewed BLX's PLP          · status in each of the five renewal   ·ods between
2001 and 2006.




     A chronology of key actions regarding BLX renewals is provided in
Appendix III. SBA officials believe their actions to extend BLX' s del ated
              ,..,.•.,. ..,..,...,...,·ate




SBA also continued to honor guarantee requests on loans originated by BLX,
       · $272.1 million in          tees between 2001 and 2006. Although
                                          SBA did not increase its scrutiny of
purchase requests from BLX or single out those BLX offices with the most
purchase requests for increased oversight attention. Further, our review of 39

2
    Loans for which full repayment is doubtful and some degree of loss will occur.
                                                                                    6


                                         1999 and May 2004, disclosed that ­
                                             . We found no evidence in SBA's loan
files that SBA resolved the deficiencies or obtained a repair or denial of the
guarantees.

Although SBA personnel believe they took appropriate actions, in our opinion,
more stringent steps should have been taken to hold BLX accountable for its
noncompliance with SBA regulations and to mitigate risks posed by the lender's
portfolio. We believe SBA took limited action because:

   • 	 it lacked clear enforcement policies describing circumstances under which
       it would suspend or revoke delegated lending authority and did not have
       procedures directing how suspension or revocation would be done.

   • 	 the lender oversight responsibilities of OLO and OFA are not compatible
       with OCA loan production goals which presented a potential conflict or at
       least the appearance of a conflict, between the desire to encourage lender
       participation in PLP and the need to evaluate lender performance and take
       enforcement action.

   • 	 discontinuing BLX's participation in PLP and other delegated lending
       programs would have significantly increased the volume of loans to be
       processed by SBA field offices at a time when SBA was reducing its loan
       processing staff in field offices. Also, SBA was attempting to establish the
       Standard 7(a) Guaranty Loan Processing Centers in Hazard, Kentucky and
       Sacramento, California, and may not have believed that sufficient staffing
       would be available to manage the increased loan volume.

In January 2007 an OIG investigation led to criminal indictment of a former BLX
officer in BLX's Troy, Michigan office. To address issues identified in that
investigation, SBA executed an agreement with BLX that requires BLX to rep
SBA for          ed           on loans associated with the      ·     fraud cas




SBA management              was not receptive to    au           an
recommendations, partially agreeing with recommendation 1, neither agreeing nor
disagreeing with recommendation 2, providing a conflicting and unclear response
to recommendation 4, and disagreeing with recommendations 3 and 5.
Management believes it has stepped up its oversight and enforcement of BLX as it
has identified the risks associated with BLX and moved to monitor and
those risks.
                                                                                        7



                                                  Management's comments and our
corresponding response are discussed in more detail in the Agency Comments and
Office of Inspector General Response section of the report. Management's
response is presented in its entirety in Appendix IV. As a result of management's
comments, we modified recommendation number 1, and plan to obtain a
management decision on all five recommendations through the audit resolution
process.


RESULTS



SBA has authority to suspend or revoke a lender's PLP status for reasons that
include unacceptable loan performance, failure to make a sufficient number of
loans under SBA's expedited procedures, and violations of statutes, regulations
and SBA policies. 3 In determining whether to renew lenders, SBA measures each
lender's performance against four Agency benchmarks:

       • 	 Currency Rate -the dollar amount and number of loans that are between 0
           to 30 days past due in scheduled loan payments;

       • 	 Loss Rate- the dollar amount and number of loans charged off relative to
           the total dollars and number of loans disbursed;

       • 	 Purchase Rate - the dollar amount and number of loans purchased by SBA
           relative to total disbursements; and

       • 	 Liquidation Rate - the outstanding gross dollars and number of loans in
           liquidation relative to the dollar amount and number of loans outstanding.




3
    13 C.F.R. l20.455.
                                                                                   8




In addition to the performance statistics needed to qualifY for renewal, lenders also
must originate at least four new PLP loans since their last renewal in each of the
geographical areas where they had PLP status. For the June 2001 renewal, 16 of
the 59            field offices indicated that BLX had made less than the    uired 4
PLP l




The Center is responsible for processing nominations and renewals for delegated
lending authority and for making a recommendation to OF A on each lender. Prior
to May 2006, field offices evaluated lender performance and provided the Center
renewal recommendations. Field office evaluations assigned numerical scores to
lenders based on their compliance with SBA policies and procedures, recent PLP
and 7(a) loan volumes, performance of loans in their SBA portfolios, and the
success of the lender's           and business            t activitie
                                                                    9




On-site Examinations Noted Material Deficiencies and Instances of
Noncompliance with SBA Regulations
                                                                                    10




In September 2003, SBA initiated L/LMS to measure risk to the Agency from
lender and loan portfolio performance. In assigning risk ratings SBA segregates
lenders into peer groups based on the dollar value of their guaranteed loans, and
scores them from 1 to 5 (with 1 being the lowest and 5 being the highest risk)
based on their performance.
                                                                                   11 



The ratings are based on four factors, two of which are predictive in nature and
two of which are based on historical data. The first predictive factor, the Small
Business Predictive Score (SBPS), measures the likelihood of a borrower' s severe
delinquency within the next 18 to 24 months. The second predictive factor, the
projected purchase rate, measures the percentage of a lender' s loan portfolio
dollars expected to be purchased by SBA. The historical performance factors, the
12-month purchase rate (percentage of outstanding loan guarantees purchased
within the past 12 months) and the problem loan rate (loans delinquent for 90 days
or more and all loans in liquidation) are based on information extracted from
SBA' s data base.

BLX is in the peer group of SBA' s largest lenders-those whose loan portfolios
total $100 million or more in                  Of the 54 I     in this
        7 are SBLCs.




SBA Continued to Renew BLX's Delegated Authority and to Purchase Loans


                                           SBA took no actions to restrict BLX's
ability to originate loans or to mitigate financial risks through the purchase review
                                         12


·on of two field offices in June 2003,
                                                                                                                  13




SBA Has Not Developed Clear Enforcement Policies for Preferred Lenders

SBA has authority to suspend or revoke a lender's PLP status for reasons
including unacceptable loan performance, failure to make a sufficient number of
loans under SBA's expedited procedures, and violations of statutes, regulations or
SBA policies. Further, standard operating procedure (SOP) 50 10 requires SBA to

5
    The percentage and dollar amount ofloans purchased each CY was computed by dividing the disbursed loans and
    dollar amounts purchased applicable to each CY by the loans and dollar amounts disbursed for that year. As time
    elapses it is likely that the percentage ofloans and dollars purchased applicable to each year will increase.
                                                                                                                   14


consider whether the lender has a satisfactory performance history and is in
compliance with applicable SBA statues, regulations, and policies. 6

However, SBA has not developed policies and procedures that describe when it
will suspend or revoke PLP authority or how it will do so. Although the current
version of Title 13 of the Code of Federal Regulations and SBA's SOPs contain
some enforcement actions, the guidance does not provide direction concerning
when and under what circumstances the enforcement actions should be
implemented. Also, the guidance does not state the applicability of the individual
enforcement actions to the various violations. Potentially, this could result in
inequitable and inconsistent treatment of lenders.

SBA also does not have guidance on specific follow-up procedures to target and
address performance issues for PLP lenders that receive poor risk ratings.
According to SBA officials, and as previously reported by the Government
Accountability Office (GAO)/ SBA wants to encourage lenders to participate in
the PLP. Therefore, it prefers to work out problems with lenders, and has not been
quick to terminate or revoke PLP status. For example, in the first 6 months ofFY
2007, SBA denied only 91 of 1,142 applications (8 percent) for new or renewed
PLP and SBAExpress delegated lending authorities. Only 23 of the denials were
due to poor performance. 8 It should be noted that BLX's delegated lending
authority was renewed during the same period. Because terminations and non­
renewals have not been frequent, lenders can essentially ignore SBA's delegated
lending authority requirements without suffering any material consequences.
Therefore, without consistent implementation of enforcement policies, lenders
cannot be certain of the consequences of certain ratings; and in addition, they may
not take SBA's oversight seriously.

In April 2007, SBA internally circulated proposed rules to establish lender
         t and enforcement       tions in accordance with its clearance .......,'""'<'




6
    The guidance for SBAExpress and Community Express delegated lending authorities contains similar language.
7
    GA0-03-90, Small Business Administration: Progress Made but Improvements Needed in Lender Oversight,
    December 9, 2002.
8
    This data provided by management is unaudited and outside our audit scope. It is provided to demonstrate how
    infrequently SBA has denied delegated lending authority.
                                                                                15


regulations were approved by the Administrator in July 2007 and submitted to the
Office of Management and Budget for approval. SBA will need to develop an
SOP to address their specific implementation.

Potential Conflicts Exist in Organizational Structure and Resources for
Lender Oversight

Lender oversight functions are carried out by two different offices (OLO and
OF A). Both offices are within OCA, which is responsible for the direction and
administration of SBA's lending programs, including working with lenders to
deliver programs, promoting delegated lending authorities, and setting loan
production goals, among other functions. Because the lender oversight role
involves taking necessary enforcement actions against lenders and revoking PLP
status when needed, these responsibilities of OLO and OFA are not compatible
with OCA' s role of promoting SBA's lending programs and growing the Agency's
loan portfolio. Thus, this organizational arrangement presents a potential conflict
or at least the appearance of a conflict, between the desire to encourage lender
participation in PLP and the need to evaluate lender performance and take
enforcement action.

To illustrate, with the exception of one fiscal year during our review period,
OCA's loan production goals increased each year both in terms of the number and
dollar value of loans it wanted to have in the Agency's loan portfolio. Because
BLX has been among the top 10 SBA lenders since 2001, any actions that would
appropriately mitigate BLX' s risk, such as suspending its delegated lending
authority, also would have been detrimental to achieving SBA's loan production
goals.



by SBA field offices and the recently-established Standard 7(a) Guaranty Loan
Processing Centers in Hazard, Kentucky and Sacramento, California. Lenders not
using delegated lending authority must submit their loans to an SBA field office
for review and approval by SBA personnel. During the period of our audit, SBA
reduced the number of loan officers in the field offices, and in 2007 opened the
Hazard and Sacramento centers to centralize the processing of non-delegated
loans. There may have been insufficient capability at the field offices to absorb
the increase in loans that would have occurred ifBLX's delegated lending
authority had not been renewed.

SBA Has Recently Taken Action to Mitigate Losses Resulting from Loans
Involved in Alleged BLX Fraud Scheme
                                                                                   16


As a result of a recent criminal indictment of a former BLX officer, on March 6,
2007, SBA executed an agreement with BLX to recover guarantees that were
inappropriately paid to the lender. This agreement was also intended to prevent
the payment of guarantees on future loan defaults that are associated with the
criminal indictment.




While the agreement will allow SBA to recover funds relating to improperly
originated loans paid to BLX and to mitigate future losses, SBA still needs to
address the immediate impact of BLX' s performance issues. SBA has not
specified what performance levels BLX must achieve to renew its delegated
authority at the end of 2007.

RECOlVIMENDATIONS

We recommend that the Associate Administrator for Capital Access take further
action to mitigate the risk posed by BLX and to promote consistent and uniform
enforcement actions by:

1.



2.


3.


4. 	 Developing standard operating procedures to complement revised 13 CFR that
     describe circumstances under which it will suspend or revoke PLP authority
     and how it will do so.

5. 	 Identifying actions needed to address the potential conflict resulting from
     OLO's and OFA's placement in OCA.
                                                  17


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE




Recommendation 1 





Recommendation 2 

                   18




Recommendation 3
                   19




Recommendation 4
                   20




Recommendation 5
                      21




Additional Comments
22 

23 

                                                                               24



ACTIONS REQUIRED

We plan to obtain management decisions on the recommendations through the
audit resolution process because management's comments were not fully
responsive.

We appreciate the courtesies and cooperation of the Small Business
Administration representatives during this audit. If you have any questions
concerning this report, please call me at (202) 205-7203 or Robert Hultberg,
Director, Credit Programs Group at (202) 205-7 577.
                                       25
APPENDIX I. BLX PORTFOLIO STATISTICS
                                                                                                   26
APPENDIX I. BLX PORTFOLIO STATISTICS

                                         BLX Approved Loans




                                                                       El PLP Loans
                                                                       • Express Loans
                                                                       0 Community Express Loans
                                                                       0 Regular Loans




         2001      2002       2003      2004     2005    2006
                              Fiscal Years



                                      BLX Loan Dollars (Millions)


  $350.0
  $300.0
  $250.0                                                                    Iii PLP Loans
  $200.0                                                                    • Express Loans
  $150.0                                                                    D Commun ity Express
  $100.0                  -      r-                             r-­
   $50.0
    $­          -n­
                2001
                          -


                          2002
                                 r-
                                      ffi
                                      2003
                                                  r1
                                               2004
                                                          rn
                                                        2005
                                                                r-r-h
                                                                2006
                                                                            0 Regular Loans
                                          27
APPENDIX II. BLX PERFORMANCE STATISTICS
                                     28
APPENDIX III. CHRONOLOGY OF EVENTS
                                     29
APPENDIX III. CHRONOLOGY OF EVENTS
                                                                   30
APPENDIX IV.           AGENCY RESPONSE




    f~IJs                     U.S. SMALL BUSINESS ADMINISTRATION
                                       WASHINGTON, D.C. 20'i6
    ~
     i',., 1953 ·"''
        ''/STY."




             DATE:     June 18, 2007
                                   31
APPENDIX IV.   AGENCY RESPONSE 





                           2

                                   32
APPENDIX IV.   AGENCY RESPONSE 





                           3

                                   33
APPENDIX IV.   AGENCY RESPONSE 





                           4

                                   34
APPENDIX IV.   AGENCY RESPONSE 





                           5

                                   35
APPENDIX IV.   AGENCY RESPONSE 





                           6

                                   36
APPENDIX IY.   AGENCY RESPONSE 





                           7

                                                                                                            37
APPENDIXV.                OIG COUNSEL OPINION 





    0
                                      U.S. SMALL BUSINESS ADMrNISTRATION
                                         OFFICE OF INSPECfOR GENERAL 

             '
                              WASHINGTON,     D.C. 20416

                   y

         .
                                               MEMORANDUM

      TO: 	              Debra S. Ritt 

                         Assistant Inspector General for Auditing 


      FROM: 	            Glenn P. Harris   CJ vf'   ~
                         Counsel to the Inspector General

      DATE:              June 29, 2007

      RE:                Agency Authority To Reduce The Guaranty Percentages on SBA Loans


              You have requested an opinion as to whether the Small Business Administration (SBA)
      has the legal authority to reduce the guaranty percentages for all new loans originated by a
      specific lender below the percentages identified in section 7(a)(2) of the Small Business Act (the
      Act). As discussed below, it is my opinion that SBA has such authority, based upon the relevant
      legislative history and SBA' s regulatory interpretation of this provision.

              Section 7(a)(2) of the Act states that guarantees made by SBA "shalt be equal to" 85
      percent of a loan that is under or equal to $150,000, and 75 percent of a loan that is over
      $150,000. 15 U.S.C. § 636(a)(2). Understanding the meaning of this provision requires that it
      be read in the context of the entire Act "It is a 'fundamental canon of statutory construction that
      the words of a statute must be read in their context and with a view to their place in the .overall
      statutory scheme."' FDA v. Brown & Williamson Tobacco Corp., 529 U.S. 120, 132 (2000)
      (quoting Davis v. Michigan Dept. ofTreasury, 489 U.S. 803, 809 (1989)). Thus, section 7(a)(2)
      must be read in conjunction with section 5(b)(7) of the Act, which gives SBA broad authority in
      administering the section 7(a) loan program by authorizing the SBA Administrator to:

                  "[l]n addition to any powers, functions, privileges and immunities otherwise
                  vested in him, take any and all actions ... when he determines such actions are
                  necessary or desirable in making, servicing, compromising, modifying,
                  liquidating, or otherwise dealing with or realizing on loans made under the
                  provisions of this chapter ....

      15 U.S.C. § 634 (b)(7) (emphasis added). Thus, the question is whether Congress intended that
      the words "shall be equal to" in section 7(a)(2) operate so as to limit SBA's broad authority
      under section 5(b)(7) and absolutely prohibit the Agency from giving guarantees less than the
      percentages identified in the statute. Both the legislative history of section 7(a)(2) and SBA's
      regulatory interpretation of this section support the conclusion that this was not Congress'
      intention.
                                                                                                          38
APPENDIXV.            OIG COUNSEL OPINION 





             Prior to 1995, section 7(a)(2) stated that any guarantees offered by SBA "shall be ... not
     less than" specified owneric percentages identified in the statute (the percentages differed by
     dollar amount of the loan and loan maturity). SBA Legislative Handbook at 44. Similarly, the
     section stated that SBA "shall not . .. reduce the percent guaranteed to less than the above
     specified percentums other than by detennination made on each application." !Q. In 1995,
     Congress amended the section to provide that guarantees "shall be equal to" the identified
     percentages. The replacement of specific and mandatory language prohibiting lesser guarantees
     ("shall not be less than") with arguably more ambiguous language ("shall be equal to") suggests
     that Congress did not intend through the current wording to prohibit SBA's authority to give
     guarantees lower than the percentages identified in the Act if this was detennined to be necessary
     or desirable under section 5(b )(7).

             Legislative history relevant to the 1995 amendment of§ 7(a)(2) supports this
     interpretation. In addition to removing the "shall not be less than" language, Congress also
     reduced the percentage of a loan that SBA could guarantee. In the section-by-section analysis of
     the report, the Senate Committee on Small Business explained that the "provision also reduces
     the maximwn percentage of a federal guarantee to 75 percent." S. Rep. 04-129, 1995
     U.S.C.C.A.N 318, 326 (1995) (emphasis added). By terming this percentage a "maximum,"
     Congress indicated that a lower percentage guarantee would also be acceptable.

              SBA's contemporaneous regulation implementing the amendment to section 7(a)(2)
      reflects a similar interpretation. As amended in 1996, the regulation provides:

            SBA's guarantee percentage must not exceed the applicable percentage established in
            section 7(a) of the Act. The maximum allowable guarantee percentage on a loan will be
            detennined by the loan amount. As of October 12, 1995, the percentages are: Loans of
            $100,000 or less may receive a maximum guaranty of 80 percent. All other loans may
            receive a maximum guaranty of75 percent, not to exceed $750,000, unless otherwise
            authorized by law.

      l3 C.F.R. § 120.21 0 (1996) (emphasis added).

             In 2002, Congress raised the percentage that SBA could guaranty on smaller loans from
     80 percent to the current 85 percent. P.L. 106-554 (2000) (114 Stat. 2763). SBA changed its
     regulations to reflect this change, offering the following explanation:

            Previously, SBA was authorized to guarantee no more than 80 percent of a loan if the
            gross amount of the loan was $100,000 or less, and no more than 75 percent of a loan
            over that amount. Section 202 of the 2000 Act amends the 7(a) business loan program by
            authorizing SBA to guarantee up to 85 percent of a loan if the gross amount of the loan is
            no more than $1 50,000. Under the 2000 Act, the maximum SBA guaranty on a loan
            greater than $150,000 is 75 percent except as otherwise authorized by law. To reflect
            these changes, SBA is amending § 120.210 of the regulations.




                                                      2
                                                                                                              39
APPENDIX V.            OIG COUNSEL OPINION 





            68 Fed. Reg. 5!677 (emphasis added). The current wording of section 120.210 reflects
      SBA's continued interpretation that the percentages in section 7(a)(2) represent merely the
      "maximwn" amount of a loan that the Agency can guarantee.

              The Supreme Court has held that broad deference must be given to a regulation that
      interprets an agency's governing statute:

             If Congress has explicitly left a gap for the agency to fill, there is an express
             delegation of authority to the agency to elucidate a specific provision of the
             statute by regulation. Such legislative regulations are given controlling weight
             unless they are arbitrary, capricious, or manifestly contrary to the statute .. ..
             [C]onsiderable weight should be accorded to an executive department's
             construction of a statutory scheme it is entrusted to administer, and the principle
             of deference to administrative interpretations has been consistently followed by
             this Court whenever decision as to the meaning or reach of a statute has involved
             reconciling conflicting policies, and a full understanding of the force of the
             statutory policy in the given situation has depended upon more than ordinary
             knowledge respecting the matters subjected to agency regulations. If this choice
             represents a reasonable accommodation of conflicting policies that were
             committed to the agency's care by the statute, we should not disturb it unless it
             appears from the statute or its legislative history that the accommodation is not
             one that Congress would have sanctioned

      Chevron U.S.A .. Inc. v. Natural Resources Defense Council. Inc .. 467 U.S. 837, 843-45 (1984)
      (citations and quotation marks omitted).

              Chevron also requires that any restrictions limiting agency discretion and authority to act
      under an organic statute to be clear. Without this clear language, an agency's interpretation must
      be given great deference, as long as it is reasonable. One must first inquire whether "the intent
      of Congress is clear" as to "the precise question at issue ." If so, "that is the end of the matter."
      But "if the statute is silent or ambiguous with respect to the specific issue, the question for the
      court is whether the agency's answer is based on a permissible construction of the statute."
      Chevron, 467 at 842-44. "If the administrator's reading fills a gap or defines a term in a way that
      is reasonable in light of the legislature's revealed design, we give the administrator's judgment
      "controlling weight."' NationsBank of North Carolina. N .A. v. Variable Annuity Life Ins. Co.,
      513 U.S. 251, 257 (1995) (citing Chevron, 467 U.S. at 844).

              SBA's regulation interpreting section 7(a)(2) of the Act as merely establishing a ceiling
      on the percentage of a loan that the Agency can guarantee is certainly "reasonable in light of the
      legislature's revealed design" since it is entirely consistent with the legislative history of this
      section. Therefore, section 5(b)(7) appears to provide the SBA with the power to unilaterally
      reduce the percentage of loan guarantees below the percentages set forth in section 7(a)(2), if it is
      interpreted to be an action that is necessary or desirable with respect to a loan or loans under the
      7(a) program.




                                                        3
